No. 20-5094

FILED
OCT 2 8 2829

3fti ®&e

Supreme Court of tfte fHtttteb States:
ANITA LAUX, Petitioner
vs.
MENTOR WORLDWIDE, LLC, Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR REHEARING

Attorney For Petitioner
Anita Laux, Pro Se
P. O. Box 7212
Westlake Village, CA 91359
(805) 443-9909

RECEIVED
NOV - 3 2020
OFFICE OF THE CLERK
SUPREME COURT. U.S.

TABLE OF CONTENTS
Page
TABLE OF CONTENTS

i

TABLE OF AUTHORITIES

iii-iv

PETITION FOR REHEARING

1

REASONS FOR GRANTING THE PETITION

i

(1) Supreme Court Rule 44.2 Intervening Circumstance: a Precedent Decision on July 2,
2020, in Mize v. Mentor Worldwide, LLC. The Appellate Court Recently Reversed Preemption
and Overruled Trial Court's Dismissal in Mize v. Mentor Worldwide, LLC. Mize Tort Claims
Survives Express Preemption, Premised on Conduct That Both (1) violates the [MDA] and (2)
1-2
would give rise to a recovery under state law even in the absence of the [MDA],
(2) Stare decisis: The Doctrine of Precedent. Precedents not only have persuasive
authority, but obligates courts to respect the precedent established by a prior decision when
similar subsequent cases arise. Mize v. Mentor and Laux v. Mentor are with similar issues on
the same legal issue of preemption: Whether state-law claims against a medical device
manufacturer, based on duties that parallel federal requirements, preempted by the Medical
Device Amendments ("MDA"), 21 U.S.C. 360 et seq., to the Food, Drug, and Cosmetics Act
1-2
("FDCA"), 21 U.S.C. 301 et seq.?
(3) Additional Similarities Between Mize v. Mentor and Laux v. Mentor. Both are under
many of the same federal and state laws including California Law and applicable FDA
Regulations. Strict Product Liability in Tort, and similar Causes of Action for Manufacturing
Defect Claims and Negligence, for Class III Medical Devices
3-5

CONCLUSION

6

CERTIFICATE OF COUNSEL

7

APPENDICES

App. 1-76

-I-

A

INDEX TO APPENDICES
APPENDIX A

Decision of the Court of Appeal of the State of
California Second Appellate District Division Six
Mize v. Mentor Worldwide, LLC., No. B295829
Preemption REVERSED
Order entered July 2, 2020...............................

1-21

APPENDIX B

Mize v. Mentor Worldwide, LLC., Super.Ct. No. BC649083
Mize's Third Amended Complaint
Filed April 2, 2018............................................................. 22-64

APPENDIX C

Mize v. Mentor Worldwide, LLC., Super.Ct. No. BC649083
Plaintiffs' Opposition to Defendant Mentor's Demurrer to
Plaintiffs' Third Amended Complaint. (The Appellate
Court ORDER on July 2, 2020 concluded Mize's case survives
preemption).
Filed June 27, 2018
65-76

t *

-ft-

n

TABLE OF AUTHORITIES
PAGE

CASES
Mize v. Mentor Worldwide, LLC
Cal. Court of Appeal 2nd Appellate Dist., 6th Div. (2020) Civ. No. B295829
51 Cal. App 5th 850 (2020)........................................................................

1/2

Glennen v. Allergan, Inc.
247 Cal. App. 4th (2016)

2,5

Rannard v. Lockheed Aircraft Corp.
26 Cal.2d 149 (1945).................

2

Riegel v. Medtronic, supra, 552 U.S. (2008)

5

v «

■»

-III-

STATUES AND RULES
2,4,5

21 U.S.C. 360 et seq

3,5

21 U.S.C. 360k(a)
21 U.S.C. 301 et seq

2,4,5

21 C.F.R. 820.1, et seq

3

RULES
Supreme Court Rule 44.2

1

-IV-

PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.2, Anita Laux respectfully petitions for
rehearing of this Court's October 5, 2020 Order denying her petition for a writ of
certiorari. Ms. Laux's petition for rehearing is filed within 25 days after the date
of the order of denial, and complies with the filing requirements of paragraph 1
and Paragraph 2 of Rule 44. This petition is presented in good faith and not for
delay.
REASONS FOR GRANTING THE PETITION
1.

Intervening circumstances warrant rehearing of the denial of Anita Laux's
petition for a writ of certiorari.
Rule 44.2 of the Rules of the Supreme Court of the United States allows

petitioners to file a rehearing of the denial of a petition for a writ of certiorari and
permits rehearing on the basis of "intervening circumstances of a substantial or
controlling effect or to other substantial grounds not previously presented."
The intervening circumstance in Laux's product liability case is the recent
precedent decision in the appellate court on July 2, 2020:

Rexina Mize v.

Mentor Worldwide, LLC, No. B295829, 51 Cal. App. 5th 850 (2020). The Court of
Appeal of The State of California Second Appellate District Division Six, REVERSED
PREEMPTION, on the trial court's judgment and entered an order overruling the

1

demurrer to the third amended complaint. The court concluded "that the tort
claims in this case survive preemption because they are premised on conduct that
both (1) violates the Medical Device Amendments [MDA] and (2) would give rise
to recovery under state law even in the absence of the [MDA]. mi

[Citation]"

(Glennen v. Allergan, Inc. (2016) 247 Cal.App.4th 1,11-12 (Glennen).) We further
conclude that Mize and Nguyen pled the requisite '"casual connection"' between
their injuries and Mentor's tortious acts to survive a demurrer.

(Rannard v.

Lockheed Aircraft Corp. (1945) 26 Cal.2d 149, 156 (Rannard).) Because the trial
court reached contrary conclusions, we reverse. DISPOSITION: "The judgment is
reversed, and the matter is remanded to the trial court with directions to enter an
order overruling the demurrer to the third amended complaint. Mize and Nguyen
shall recover their costs on appeal." Mize v. Mentor, 51 Cal. App. 5th 850 (2020).
Certified For Publication, filed July 2, 2020. [Citation],
decision in the Mize court overruling preemption

The recent precedent

is a substantial controlling

effect and persuasive authority on Laux's case to survive preemption. Laux is
showing a good-faith reason of intervening circumstances in the Mize v. Mentor
Worldwide LLC, which warrants the Supreme Court of the United States to grant
Laux's petition for rehearing.

z

The recent precedent decision on preemption reversed in Mize v. Mentor
Worldwide, LLC, has several similar issues as cited in Laux v. Mentor. Both Mize
and Laux have similar Causes of Action for Negligence and Strict Product LiabilityManufacturing Defect Claims, and have cited several of the same rules of law
under the MDA, FDCA, Title 21 U.S. Code 360k(a) State and local requirement
respecting devices,

Parallel State-Law Claims, California Tort Law, the FDA's

Quality System Regulations and Current Good Manufacturing Practices, 21 C.F.R.
Codes of Federal Regulations 820.1, et seq., which requires each manufacturer to
put in place processes to test products for compliance with product specifications
before products are accepted for sale and use, and to identify and control
nonconforming products. Both Mize and Laux have similar legal circumstances in
the Class III medical devices that both Mize and Laux received from the same
manufacturer known as Mentor Worldwide, LLC.

Both Mize and Laux alleged

that Mentor had a duty under Federal law, and a parallel duty under California
law, to exercise reasonable care in developing, manufacturing, testing, inspecting
and selling their product to ensure that it was safe and made in conformity with
the manufacturing and design specifications mandated by the FDA.

Under

California law and similar circumstances between the two separate cases in Mize
and Laux, can be examined for similarities on their filed Complaints, respectively.

3

See Appendices attached hereto for Mize's Third Amended Complaint as
Appendix B. For reference purposes, a copy of Laux's Complaint can be viewed
on Appendix G in Laux's petition for writ of certiorari, in order to exam the
similarities between Mize v. Mentor Worldwide, LLC and Laux v. Mentor
Worldwide, LLC.
Mize v. Mentor and Laux v. Mentor are with similar issues on the same legal issue
of preemption: Whether state-law claims against a medical device manufacturer,
based on duties that parallel federal requirements, preempted by the Medical
Device Amendments ("MDA"), 21 U.S.C. 360 et seq., to the Food, Drug, and
Cosmetics Act ("FDCA"), 21 U.S.C. 301 et seq.?

In the Mize v. Mentor appellate

court decision on July 2, 2020, concluded that the tort claims in the Mize case
survive preemption. Laux presented the above question on preemption in her
petition for a writ of certiorari.
The tort law claims in Laux's case are similar with Mize's case because they are
premised on conduct that both (1) violates the Medical Device Amendments
[MDA] and (2) would give rise to recovery under state law even in the absence of
the [MDA].

The

precedent decision in Mize v. Mentor Worldwide, LLC, has

persuasive

authority

in

the

Laux

v.

Mentor

Worldwide,

LLC

case.

Documented in the Appellate Court Order concluded Mize's case survives

preemption (attached hereto as Appendix A), and

Mize's Third Amended

Complaint (attached hereto as Appendix B).
On Mize's Appellate Court ORDER, attached hereto in Appendix A, App.9, "The
MDA expressly preempts any state requirement that: (1) "is different from, or in
addition to, any requirement applicable under [the FDCA]," and (2) "relates to the
safety or effectiveness of the device or to any other matter included in a
requirement applicable to the device under [FDCA]." 360k(a).) The MDA "does
not prevent a [s]tate from providing a remedy for claims premised on a violation
of FDA regulations," however because "the state [requirements] in such a case
'parallel,' rather than add to, federal requirement." (Riegel, supra, 552 U.S. at p.
330.)
mu

A state requirement parallels a federal requirement if the two are

generally equivalent'"" (Glennen, supra, 247 Cal.App.4th at p.10)." [CITATION in

Mize's Appellate Court decision on July 2, 2020, concluded Mize survives
preemption], in which Laux has cited the same parallel state-law claims
throughout her filed documents at trial court.
Similarly, here in Laux v. Mentor Worldwide, and in Mize v. Mentor Worldwide,
both cases pleaded similar causes of action for strict product liability claims for
manufacturing defects claims and negligence, for a Class III Medical Device, Under
the same California Law.

5

CONCLUSION
Petitioner Laux respectfully requests that the Supreme Court of the United States
to grant this petition for rehearing based on the recent intervening circumstances
of preemption reversed in the recent precedent decision in
Worldwide, LLC.

Respectfully submitted,

T%v44iU4X 10 ^
Anita Laux, Pro Se
Attorney for Petitioner
P. O. Box 7212
Westlake Village, CA 91359
(805) 443-9909

October 29, 2020

(p

Mize v. Mentor

